                                            4 October 2000

                     I

        MEMORANDUM
             I
                  TO:                        The File
    I
                     11
                                             REDACTED

        THROUGH:
                     i                       REDACTED
                      I
                      I
        SUBJECT:I                            Closeout Case 1-00080013

               On11 June 2000, a post-doctoral researcher1 (complainant) sent a letter to OIG
        containing ijseveral allegations of misconduct in science and misappropriation of federal
        grant funds. A majority of the misconduct in science allegations involved a lengthy,
        acrimoniods personal dispute between the complainant and a supervising professor2
        (subject) ahd did not qualify as misconduct in science. The misconduct case3 closed on
I
        14 August; 2000. However, as the complainant's letter contained two allegations of
        possible misappropriation of personnel salary and publications costs, our office opened
        an I-case file to investigate these allegations. According to ihe complainant, the subject
        received ddplicate summer salary funding from NSF and NASA EPSCoR and spent NSF-
        funded publication costs to publish an old project not covered by his current IVSF grant.4
                          'I
                On I27 July 2000, we wrote the subject requesting a complete accounting of
        summer salary from 1998-2000 and publication costs charged to his current NSF grant.
        The subject provided this information on 3 September 2000. In a review of the response,
        it did not Appear that there was any evidence of duplicate federal funding for salary
        expenses. The subject admitted to charging publication costs to his current NSF grant on
        a reprint of a paper funded by an earlier NSF grant, but requested that the university
        correct the bcount against which the costs were claimed. These reprint publication costs
        will be redoved from his current NSF grant. Accordingly, as there appears to be no
        evidence of misappropriation of federal grant funds, this case is closed.
                           I
                               I




        '   redacted. 1
            redacted. ' 1
            M00060027.
            redacted i1C
                                   'I
                                                Page 1 of 1                               MOO- 13
